APPENDIX “A”
IN THE
UNITED STATES SUPREME COURT

United-States-Court of-Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

May 21, 2021
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 20-30636

Edwards v. Vannoy
USDC No. 5:18-CV-1007

Enclosed is an order entered in this case.

Sincerely,
LYLE W.

By:
Majella A.Sutton,Deputy Clerk
504-310-7680
Mr. Derrick Edwards
Ms. Rebecca Edwards
Mr. Tony R. Moore

Case: 20-30636

Document: 00515871159

Page: 1

Date Filed: 05/21/2021

®nitei)-^>tates!-Court-of-SppeaIs:
for the ififth Circuit

United States Court of Appeals
Fifth Circuit

FILED

No. 20-30636

May 21,2021
Lyle W. Cayce
Clerk

Derrick Edwards

Petitioner—Appellant,
versus
Darrel Vannoy, Warden, Louisiana State Penitentiary,
Respondent—Appellee.
Appeal from the United States District Court
for the Westem District of Louisiana
USDC No. 5:18-CV-1007
ORDER:
IT IS ORDERED that Appellant’s motion for a certificate of
appealability is DENIED.
IT IS FURTHER ORDERED that Appellant’s motion to proceed in
forma pauperis is GRANTED.

/s/ Leslie H. Southwick
Leslie H. Southwick
United States Circuit Judge

UnitedStates-Courtof-Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

June 14, 2021

Mr. Tony R. Moore
Western District of Louisiana, Shreveport
United States District Court
300 Fannin Street
Suite 1167
Shreveport, LA 71101-0000
No. 20-30636

Edwards v. Vannoy
USDC No. 5:18-CV-1007

Dear Mr. Moore,
Enclosed is a copy of the judgment issued as the mandate.

Sincerely,
LYLE W.

By:
Majella A. Sutton, Deputy Clerk
504-310-7680
cc:
Mr. Derrick Edwards
Ms. Rebecca Edwards

Case: 20-30636

Document: 00515897831

Page: 1

Date Filed: 06/14/2021

timteii States: Court of Appeals
for tfje jftftf) Ctrtutt

\\|g

United States Court of Appeals
Fifth Circuit

Certified as a true copy and issued
as the mandate on Jun 14, 2021

“

FILED

No. 20-30636

W. ComOl

May 21,2021

Clerk, U.S. Court of Appeals, Fifth Circuit

Lyle W. Cayce
Clerk

Derrick Edwards

Petitioner—Appellant,
versus
Darrel Vannoy, Warden, Louisiana State Penitentiary,
Respondent—Appellee.
Appeal from the United States District Court
for the Western District of Louisiana
USDC No. 5:18-CV-1007
ORDER:
IT IS ORDERED that Appellant’s motion for a certificate of
appealability is DENIED.
IT IS FURTHER ORDERED that Appellant’s motion to proceed in
forma pauperis is GRANTED.

/s/ Leslie H. Southwick
Leslie H. Southwick
United States Circuit Judge

APPENDIX “B”

https ://nextcorre

Edwards v. Vannoy | WestlawNext

nal.westlaw.com/Document/Icf3f28200264...

WESTLAW
Edwards v..Vannoy---------------------------United States District Court, W.D. Louisiana, Shreveport Division.

----------------September 28, 2020 Slip Copy

---------------------------------2020 WL 5778113 (Approx. 1 page)

2020 WL 5778113
Only the Westlaw citation is currently available.
United States District Court, W.D. Louisiana,
Shreveport Division.

Derrick EDWARDS, Petitioner
v.

Darrel VANNOY, Respondent
CIVIL ACTION NO. 5:l8-CV-1007-P
Signed 09/28/2020
Attorneys and Law Firms
Derrick Edwards, Angola, LA, pro se.
Rebecca Armand Edwards, DA's Office (1st JDC), Shreveport, LA, for Respondent.
JUDGMENT
S. MAURICE HICKS, JR., UNITED STATES DISTRICT JUDGE
*1 For the reasons assigned in the Report and Recommendation of the Magistrate Judge
previously filed herein, and having thoroughly reviewed the record, including the written
objections filed, and concurring with the findings of the Magistrate Judge under the
applicable law;
It is ordered that Petitioner's petitions for writ of habeas corpus are DENIED and
DISMISSED WITH PREJUDICE.
Rule 11 of the Rules Governing Section 2254 Proceedings for the U.S. District Courts
requires the district court to issue or deny a certificate of appealability when it enters a final
order adverse to the applicant. The court, after considering the record in this case and the
standard set forth in 28 U.S.C. Section 2253, denies a certificate of appealability because
the applicant has not made a substantial showing of the denial of a constitutional right.
THUS DONE AND SIGNED at Shreveport, Louisiana, this the 28th day of September, 2020.
All Citations
Slip Copy, 2020 WL 5778113

End of
Document

WestlawNext. © 2021 Thomson Reuters

1 of 1

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

TH0MS0H MUT6BS
Thomson Reuters fs'tibtproviding legal advice

7/24/21,1:47 PM

NOTICE FROM U.S. DISTRICT COURT - WESTERN DISTRICT OF LOUISIANA

Derrick Edwards (PrisID: 621889 )
Louisiana State Penitentiary
Angola, LA 70712

Case: 5:18-cv-01007 #12
26 pages printed: Fri Feb 14 15:41:37 2020

aUNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
SHREVEPORT DIVISION
DERRICK EDWARDS,
Petitioner

CIVIL ACTION NO. 5:18-CV-1007-P

VERSUS

JUDGE S. MAURICE HICKS, JR.

DARREL VANNOY,
Respondent

MAGISTRATE JUDGE PEREZ-MONTES

REPORT AND RECOMMENDATION
Before the Court is a Petition for Writ of Habeas Corpus filed under 28 U.S.C.
§ 2254 by pro se Petitioner Derrick Edwards (“Edwards”) (#621889). ECF No. 1.
Edwards is an inmate in the custody of the Louisiana Department of Corrections
(“DOC”), incarcerated at the Louisiana State Penitentiary in Angola, Louisiana.
Edwards challenges his 2014 conviction and sentence imposed in the First Judicial
District Court, Caddo Parish, Louisiana.
Because Edwards has not carried his burden of proving entitlement to habeas
relief, his Petition (ECF No. l) should he DENIED and DISMISSED WITH
PREJUDICE.
I.

Background
Edwards was indicted by a grand jury for one count of second-degree murder,

in violation of La. R.S. 14:30.1, for the death of Tyrone Miles (“Miles”). ECF No. 113 at 13.
According to the Louisiana Second Circuit Court of Appeal:

1

Derrick-Edwards-and_Batricia-Cathron-Edwards-are_the_parents-of.
Shanderricka Edwards. When Shanderricka was three years old, her
father abandoned her and had little to do with her for the next 14 years.
On June 4, 2011, Shanderricka was 17 years of age. She lived in
Shreveport in a duplex with her mother.
Tomika Adams, age 30, resided in the upstairs apartment of the duplex.
In the preceding few months, both Tomika and Shanderricka had been
involved with 27-year-old Tyrone Miles, a point of contention between
the two women.
Katrina Brown lived two houses from the duplex. Diane Priest lived in
a house next to Katrina, three houses from the duplex. Tomika’s
mother, Everlerna Adams, lived across the street diagonally. The
defendant was a very personal friend with Lavonne Bell, who resided
nearby.
I. The Initial Argument
In the early afternoon of June 4, 2011, Shanderricka and Tomika argued
about:
•
•

a DVD player that Everlerna had loaned to Shanderricka; and
Shanderricka’s belief that Miles had gone back with Tomika.

Diane observed the argument from her front porch, testifying that
its duration was about a half hour. Lavonne testified that Tomika
refused to fight Shanderricka. The police were called and both women
were handcuffed, but not arrested. Lavonne called the defendant to tell
him that his daughter had been involved in an argument and was in
handcuffs.
The defendant arrived and spoke with the officers.
He and
Shanderricka discussed the argument, but were not angry with each
other at that time.
II. The Argument Between Shanderricka’s Parents
The defendant and Patricia argued about his disapproval of
relationship between Shanderricka and Miles. Patricia
Shanderricka returned to the duplex. Miles later joined them.
defendant remained in the street, still angry. He asked Lavonne
Tomika to take his truck and go purchase beer. They did so.

2

the
and
The
and

After_they_left,_the.defendant _was.in.the.street .in.front_of_the_Brownsl
house, talking to a crowd of people, including Diane. Lavonne testified
that when she left, the defendant was not angry or upset.
III. The Father-D aughter Fight
Shanderricka and her young sister walked by the group of people, when
she heard her father saying that he was going to have Lavonne fight
Patricia.1 Shanderricka told him that he couldn’t “do that” but that he
could “whoop” her. Shanderricka asked her father why he was talking
about their family business in public. Shanderricka later said that he
must have thought she was disrespectful.
Shanderricka was holding her two-or three-year-old sister when the
argument began. She put the child down and Katrina picked up the
child. Shanderricka and her father began physically fighting. The
defendant, age 37, grabbed his daughter, age 17, by her throat and
began hitting her in the face with his fists. Shanderricka fought back,
but the defendant pulled her to the ground by her hairpiece.
Patricia swung her crutch at the defendant, but missed. After the fight,
Miles helped Shanderricka and Patricia up, and walked them back to
the duplex.
Shanderricka identified photographs showing scratches on her neck and
bruises on her face.
Everlerna testified that she saw the defendant hit his daughter, but said
the marks on Shanderricka’s face and neck were caused by Patricia’s
crutch.
IV. Invitation to a Killing
After the fight, the defendant followed Miles, Shanderricka, and Patricia
down the street, challenging anyone to “come out to the street and get
it.”
Shanderricka testified that:
•
•
•

her father told Miles that he would “bust his butt”;
she told Miles not to worry about her father;
her father continued to taunt and provoke Miles;

Patricia, the mother of Shanderricka, was an amputee.
3

•—she_tried_to-restrain-Miles,-but-he-broke-away-and-went-into-the
street;
• it was dark, with minimal to no street lights working!
• Miles, age 27, and the defendant began fist-fighting!2
• the fight lasted two to three minutes!
• she never saw Miles with a weapon!
• her father normally carried a pocket knife in his pants pocket! and
• she never saw the defendant stab Miles, though she saw Miles step
backward and say, “Man, you stabbed me.”
No one testified as to seeing the knife during the fight. Patricia saw
Miles stagger into her front yard, but did not know that he had been
stabbed until he collapsed on the floor of the duplex.
Diane heard someone say, “he didn’t have to stab him.”
Shanderricka further testified that:
Miles ran toward the duplex as the defendant remained in the street,
yelling!
Miles left a bloody handprint on the door of a vehicle parked in the
yard!
he entered the duplex and fell to the floor with blood pouring from
his side! '
the photograph of the blood inside the doorway was accurate! and
she called 911, but Miles lost consciousness before EMS arrived.
The defendant also called 911, reporting that he stabbed Miles. Lavonne
said the defendant could have come to her home instead of fighting.
V. The Investigation
Corporal Jennie Taylor, of the Shreveport Police Department, who was
the first officer to arrive at the scene, testified that:
• as she exited her unit, the defendant blurted out that he had stabbed
Miles!
• she detained the defendant in her vehicle!
• she made contact with Miles and assisted with crowd control!
• she asked the defendant for the knife and he gave it to her!
• the knife was later turned over to a crime scene investigator! and
• the knife shown her in court was the one received from the defendant.
2 Katrina and Patricia also witnessed Miles walk into the street and fight with the defendant.
Patricia saw the men swinging at each other in a side-to-side motion.
4

Sergeant Danny Duddy, supervisor of the Shreveport Police
Department crime scene unit, was the on-call crime scene investigator
on June 4, 2011. Duddy identified photographs that he took of the crime
scene and the participants. He received an open pocketknife from
Corporal Taylor.
Dr. Long Jin, a forensic pathologist at LSU Health Sciences Center,
conducted an autopsy the next day, with these findings^
• cause of death was determined to be two sharp force wounds to the
chest;
• manner of death was determined to be homicide!
• one wound was a stab wound, located slightly to the left of the middle
chest;
• that wound penetrated the right ventricle of the heart;
• the right ventricle is easily penetrated by a two-inch deep jab with a
knife!
• the second wound was also a stab wound to the heart;
• both wounds were administered with a knife or sharp object;
• either wound would have been fatal;
• Miles bled to death as a result of his wounds!
• it would have taken a few minutes for Miles to die from his wounds!
• there was a possible defensive wound on the right elbow! and
• there was a slash wound to the right chest.
Trial started on January 28, 2014. The jury’s verdict came two days
later.
No post-trial motions were filed.
State v. Edwards, 49,635 (La.App. 2 Cir. 2/26/15); 162 So.3d 512, 514, writ
denied, 2015-0628 (La. 2/5/16); 186 So.3d 1163.
Edwards was convicted as charged, and he was sentenced to life imprisonment
at hard labor, without the benefit of parole, probation, or suspension of sentence. Id.
On appeal, Edwards presented two assignments of error: (l) improper use of
grand jury testimony! and (2) insufficient evidence. Id. The conviction and sentence

5

_w.ere.affirm ed_Id,__Edwards.asserted the same two errors in a writ application to
the Louisiana Supreme Court, and the application was denied. Id.
Edwards timely filed an application for post-conviction relief alleging the
following errors; (l) denial of his right to testify; (2) violation of due process in
providing an erroneous jury instruction regarding the burden of proof; (3) ineffective
assistance of counsel in failing to preserve Edwards’s right to testify and failing to
object to the judge’s erroneous jury instruction! and (4) cumulative error. ECF No.
11-6 at 47-72. The trial court denied relief. ECF No. 11-6 at 153-4. The Louisiana
Second Circuit Court of Appeal denied Edwards’s writ application on the showing
made. ECF No. 11-6 at 209. The Louisiana Supreme Court also denied writs. State
exrel. Edwards v. State, 2017-0232 (La. 4/20/18); 240 So.3d 916.
In his timely-filed § 2254 Petition, Edwards asserts six claims for relief (l)
insufficient evidence! (2) improper use of grand jury testimony! (3) denial of the right
to testify; (4) erroneous jury instruction regarding the burden of proof! (5) ineffective
assistance of counsel by failing to preserve Edwards’s right to testify and failing to
object to the judge’s erroneous jury instruction; and (6) cumulative error. ECF No. 1
at 3-15! ECF No. 1-2 at 16-42.

n.

Law and Analysis
A.

The Rule 8(a) Resolution standard is applicable.

The Court is able to resolve this Petition without the necessity of an
evidentiary hearing because there is no genuine issue of material fact relevant to the
Edwards’s claims, and the state court records provide the required and adequate

6

-factual-basis_JS'ee-Afo7a-F.-£s/ei/e,.696-E.2d„329,_332:33_(5th_Cir. JL983)L^35ter_F..
Estelle, 609 F.2d 756, 761 (5th Cir. 1980); Rules Governing Section 2254 Cases, Rule
8(a).
B.

The standard of review is deferential.

Pursuant to the Antiterrorism and Effective Death Penalty Act (“AEDPA”),
Pub. L. No. 104-132,110 Stat. 1214, a federal court may not grant habeas relief unless
the state court judgment rejecting the petitioner’s claims^ (l) “was contrary to, or
involved an unreasonable application of, clearly established federal law, as
determined by the Supreme Court of the United States,” or (2) “was based on an
unreasonable determination of the facts in light of the evidence presented in the State
court proceeding.” North v. Davis, 18-10306, 2020 WL 370034, at *1 (5th Cir. Jan.
22, 2020) (citing 28 U.S.C. § 2254(d)(l)-(2)).
The role of a federal habeas court is to guard against extreme malfunctions in
the state criminal justice systems, not to conduct a de novo review of factual findings
and substitute its own opinions for the determinations made by the trial judge. See
Davis v. Ayala, 135 S. Ct. 2187, 2202 (2015) (citing Harrington v. Richter, 562 U.S.
86, 102-03 (2011)).
Section 2254(d) demands an initial inquiry into whether a prisoner’s claim has
been “adjudicated on the merits” in state court; if it has, the AEDPA’s highly
deferential standards apply. See Davis, 135 S. Ct. at 2198 (citing Richter, 562 U.S.
at 103)).

7

A-state-COurt—decision_is_l‘contrarv to” clearly established United States
Supreme Court precedent if the state court applies a rule that contradicts the
governing law set forth in Supreme Court cases, or confronts a set of facts that are
materially indistinguishable from a decision of the Supreme Court and nevertheless
arrives at a result different from Supreme Court precedent. A state court decision
falls within the “unreasonable application” clause when it unreasonably applies
Supreme Court precedent to the facts. See Martin v. Cain, 246 F.3d 471, 476 (5th
Cir. 2001); see also Rivera v. Quarterman, 505 F.3d 349, 356 (5th Cir. 2007), cert.
den., 555 U.S. 827 (2008).
A federal habeas court making the “unreasonable application” inquiry should
ask whether the state court’s application of clearly established federal law was
objectively reasonable. A federal court cannot grant habeas relief simply by
concluding that the state court decision applied clearly established federal law
erroneously! the court must conclude that such application was also unreasonable.
See Martin, 246 F.3d at 476. An unreasonable application is different from an
incorrect one. See Bell v. Cone, 535 U.S. 685, 694 (2002). Also, if a state court
determines that a constitutional violation is harmless, a federal court may not award
habeas relief under § 2254 unless the harmlessness determination itself was
unreasonable. See Mitchell v. Esparza, 540 U.S. 12, 18 (2003); see also Davis, 135 S.
Ct. at 2199 (citing Fry v. Pliler, 551 U.S. 112, 119 (2007)).

8

C.-

Edwards cannot establish insufficient evidence^

Citing Jackson v. Virginia, 443 U.S. 307 (1979), Edwards claims that the
evidence was insufficient to convict him of second-degree murder. ECF No. 1-2 at 16.
Edwards argues that the State did not satisfy its burden of proving the charged
offense or proving that the homicide was not committed in self-defense. ECF No. 1-2
at 17. Edwards argues the State failed to present any witness to the stabbing or any
witness that could contradict Edwards’s self-defense claim. ECF No. 1-2 at 19-20.
Edwards’s sufficiency of the evidence claim was adjudicated on the merits by
the state courts on direct review. State v. Edwards, 49,635 (La.App. 2 Cir. 2/26/15);
162 So.3d 512, 516, writ denied, 2015-0628 (La. 2/5/16); 186 So.3d 1163. Therefore,
Edwards must show that the state court’s ruling “was contrary to, or involved an
unreasonable application of, clearly established federal law, as determined by the
Supreme Court of the United States,” or “was based on an unreasonable
determination of the facts in light of the evidence presented in the State court
proceeding.” 28 U.S.C. § 2254(d). Edwards can establish neither.
The applicable clearly-established federal law for a sufficiency of the evidence
claim is set forth in Jackson, which directs the reviewing court to determine “whether,
after viewing the evidence in the light most favorable to the prosecution, any rational
trier of fact could have found the essential elements of the crime beyond a reasonable
doubt.” 443 U.S. at 319. A jury’s determination of witness credibility, the inferences
made on the evidence, and the jury’s reasonable construction of the evidence are all

9

Lti-tl-ed-to-a-great.deal-of-deference.bv.a..Teviewms.court._See Marshall v. Lonberger,
459 U.S. 422, 433-35 (1983); Jackson, 443 U.S. at 319.
Moreover, when a state court has denied a sufficiency of the evidence claim on
the merits, the habeas court’s review must be doubly deferential, meaning that the
state court determination may not be overturned unless it was an objectively
unreasonable application of the deferential Jackson standard.

See Cullen v.

Pinholster, 563 U.S. 170, 190 (2011); Parker v. Matthews, 567 U.S. 37, 43 (2012);
Harrell v. Cain, 595 F. App’x 439 (5th Cir. 2015). Thus, “a federal court may not
overturn a state court decision rejecting a sufficiency of the evidence challenge simply
because the federal court disagrees with the state court.” Cavazos v. Smith, 565 U.S.
1, 2 (2011).
The federal court must look to the substantive elements of the offense under
state law when applying the Jackson standard. See Norris v. Dretke, 826 F.3d 821,
833 (5th Cir. 2016), cert, denied, 137 S.Ct. 1203 (2017). Under Louisiana law, seconddegree murder includes “the killing of a human being when the offender has a specific
intent to kill or to inflict great bodily harm.” La. R.S. 14:30.1(A)(1). “Specific criminal
intent is that state of mind which exists when the circumstances indicate that the
offender actively desired the prescribed criminal consequences to follow his act or
failure to act.” La. R.S. 14:10(1); State v. Lindsey, 543 So.2d 886 (La. 1989), cert,
den., 494 U.S. 1074 (1990); State v. Davies, 35783 (La. App. 2 Cir. 4/5/02), 813 So.2d
1262, writ, den., 2002-1564 (La. 2003), 843 So.2d 389. Specific intent may be inferred
from the circumstances surrounding the offense and the conduct of the defendant.

10

JS'ee_6'^te_F._Ojau^Az!,-2005il825-(La.-2007),-950-So.2d.583,-£?eJr^.-cfei3.,-552.U.S.J.012
(2007).

The Louisiana Court of Appeal for the Second Circuit considered and rejected
Edwards’s arguments that the State did not prove he had the specific intent to kill
the victim! that the state failed to produce a witness who saw him stab the victim;
that he acted in self-defense, having no means of retreat from the aggressor; and that
the facts would sustain a manslaughter conviction, at most. State v. Edwards, 162
So.3d at 517. The appellate court found that the record provides “overwhelming
evidence of the stabbing, including a confession from the defendant and a dying
declaration from the victim.” Id. at 518.
The Second Circuit found that Edwards’s actions prove he had the specific
intent “to kill or inflict great bodily harm” required under La. R.S. 14^30.1(A)(1). Id.
at 519. The court found that the altercation began as a fist fight, and that Edwards
elevated the fight with the use of a weapon. Id. at 519. It stated that no evidence
was presented to establish Edwards reasonably believed he was in immediate danger
of losing his life, or that killing the victim was necessary to save his own life. Id. The
Second Circuit noted that a defense witness confirmed Edwards could have retreated
to her house. Id. It also noted that the evidence showed Edwards was the aggressor,
and it pointed out an absence of evidence that Edwards attempted to withdraw from
the situation prior to using deadly force. Id. The Second Circuit held that a trier of
fact could have found, beyond a reasonable doubt, that the act was not committed in

11

.selfidefense, and that the essential elements of the crime of second-degree murder
were proven. Id.
At trial, Edwards offered nothing to substantiate his claim that he told the
officers he stabbed Miles in self-defense. Corporal Jennie Taylor (“Corporal Taylor”)
of the Shreveport Police Department testified that Edwards approached her vehicle
when she arrived on scene. He said that he had been in a fight and stabbed the victim
ECF No. 11-4 at 174, 180. After she checked on Miles, Corporal Taylor went back to
Edwards, who gave her the pocketknife used to kill Miles. Id. at 175. Corporal Taylor
did not testify that Edwards claimed he acted in self-defense.
Edwards’s daughter, Shanderricka Edwards (“Shanderricka”), and her
mother, Patricia Cathron (“Cathron”), testified that Miles helped them after their
encounter with Edwards, prior to the fight between Miles and Edwards. Id. at 94-95,
153-55. Miles was walking back to their house, but responded to Edwards “nagging
at him to come fight.” Id. at 157. Miles went back to meet Edwards in the street
where the fight ensued. Id. at 106-108, 155-567.
Shanderricka testified that she did not see Miles with a weapon, and that
Edwards usually carried a pocketknife. Id. at 108. Shanderricka testified that,
although she didn’t see the stabbing, Miles and Edwards were fighting, and Miles
walked away from the fight “clutching his chest” and bleeding. Id. at 109. According
to Shanderricka, Miles “hit the floor” bleeding and said: “He stabbed me.” Id. at 110.

12

.Cath.ron.also -testified -that .she-did. not .see.Miles _with-a_weapon—7oLat_157
She saw Miles run from Edwards, “staggering,” and he “collapsed on the floor” of her
house. Id.
Diane Priest (“Priest”) testified for Edwards, stating that she never saw
Edwards with a knife. ECF No. 11-5 at 24-25. Priest also testified that Edwards
grabbed Shanderricka, pulled her to the ground, and laid on top of her to hold her
down. Id. at 33. Priest testified that Edwards was “beating his daughter like a man.”
Id. Priest saw Edwards hand the knife to the police after the fight, and she heard
Edwards say that he stabbed “the man.” Id. at 38-39.
Another defense witness, Everlerna Adams (“Adams”), testified that she did
not see Edwards with a knife. Id. at 100-01.
The testimony indicates that Edwards could have withdrawn from the conflict
when Miles walked Shanderricka back to her mother’s house. ECF No. 11-4 at 106108, 155-167. Thus, a rational trier of fact could have found the essential elements
of second-degree murder were proven beyond a reasonable doubt. There is sufficient
evidence to support Edwards’s conviction of second-degree murder.
Edwards cannot establish that the Second Circuit’s adjudication was contrary
to or involved an unreasonable application of Jackson, or that it made an
unreasonable determination of the facts in light of the evidence presented at trial.
D.

Edwards’s claim regarding the grand jury testimony is procedurallv
defaulted.

Edwards asserts that the trial court erred by failing to order a mistrial after
the State used a grand jury transcript without laying the proper foundation or
13

-wHheut-&n-in-camera -review-by-the. court_E CF_ No. _li2_ at _2 0. _E dw ar ds _p re se nt e d
this claim on appeal. ECF Nos. 11-5 at 201; 11-6 at 14.
“A fundamental prerequisite to federal habeas relief under § 2254 is the
exhaustion of all claims in state court prior to requesting federal collateral relief.”
Whitehead v. Johnson, 157 F.3d 384, 387 (5th Cir. 1998) (citing Rose v. Lundy, 455
U.S. 509, 519-20 (1982)); Preiser v. Rodriguez, 411 U.S. 475, 500 (1973).

“The

exhaustion requirement is satisfied when the substance of the federal habeas claim
has been fairly presented to the highest state court.” Id. (citing Picard v. Connor, 404
U.S. 270, 275-78 (1971)).
In his appeal, Edwards only raised the violation of Louisiana Code of Criminal
Procedure article 434; he did not present a federal claim. ECF Nos. 11-5 at 201; 116 at 14. Because Edwards did not raise the federal nature of the claim in the state
courts, the claim is unexhausted. See Baldwin v. Reese, 541 U.S. 27, 29-33 (2004);
Wilder v. Cockrell, 274 F.3d 255, 260 (5th Cir. 2001).
If Edwards now attempted to present a federal claim regarding the purported
violation in state court, the claim would be procedurally barred as untimely or
repetitive.

See La. C. Cr. P. arts. 930.8, 930.4. Because Louisiana law would

preclude review of Edwards’s claim, there is an independent and adequate state
procedural ground to prevent federal review. See Finley v. Johnson, 243 F.3d 215,
220 (5th Cir. 2001); Fearance v. Scott, 56 F.3d 633, 642 (5th Cir. 1995). Thus,
Edwards’s claim is now procedurally defaulted.

14

E.

Edwards cannot establish-the denial of-his right to testify,

Edwards complains that he was denied the right to testify in violation of the
Fifth, Sixth, and Fourteenth Amendments of the United States Constitution.
Edwards presented this claim to the state courts on post-conviction review, and relief
was denied. ECF No. 11-6 at 58-64, 167-73, 223-30, 238-40, 269. The Louisiana
Supreme Court held that Edwards failed to satisfy his post-conviction burden of proof
under La.C.Cr.P. art. 930.2. Id. at 269. Because the claim was adjudicated on the
merits by the highest state court, Edwards must satisfy the showing required by
§2254(d).
The right to testify stems from the Due Process Clause of the Fourteenth
Amendment and the Compulsory Process Clause of the Sixth Amendment, as well as
the Fifth Amendment privilege against self-incrimination. See Rock v. Arkansas, 483
U.S. 44, 51 (1987). “Every criminal defendant is privileged to testify in his own
defense, or to refuse to do so.” Harris v. New York, 401 U.S. 222, 225 (1971). “This
right is personal to the defendant: only he, not counsel, may make the choice.” United
States v. Rodriguez-Aparicio, 888 F.3d 189,193 (5th Cir. 2018), cert, denied, 139 S.Ct.
592 (2018) (citing United States v. Mullins, 315 F.3d 449, 452 (5th Cir. 2002)).
A habeas petitioner has the burden of proving that he was denied this
constitutional right, and it is not enough to merely state that he told his trial attorney
that he wanted to testify but his attorney forbade him from doing so. See Murray v.
Cain, 15-CV-0827, 2019 WL 1417442, at *6 (M.D. La. Mar. 5, 2019), report and
recommendation adopted, 2019 WL 1412932 (M.D. La. Mar. 28, 2019) (citing Reed v.

15

Cain, —13:CV-0Q37,-2014_WL_205Q613,^9:10_(E.D.„La. Sept. 2, 2014); Turcios v.
Dretke, 97-CV-0515, 2005 WL 3263918, *6 (S.D. Tex. Nov. 29, 2005); Underwood v.
Clark, 939 F.2d 473, 475-76 (7th Cir. 1991)).
In Underwood the United States Court of Appeals for the Seventh Circuit
specifically noted the potential problem posed if a habeas petitioner, arguing that
counsel unconstitutionally denied him his right to testify, is not required to satisfy
his burden of proof. See Mosley v. Cain, 06-CV-6259, 2009 WL 2982930, at *4 (E.D.
La. Sept. 14, 2009) (citing Underwood9d>9 F2d at 475-75).
There is grave practical difficulty in establishing a mechanism that will
protect a criminal defendant’s personal right (that is, a right not
waivable by counsel) to testify on his own behalf without rendering the
criminal process unworkable. It is extremely common for criminal
defendants not to testify, and there are good reasons for this, as we have
seen. Yet it is simple enough after being convicted for the defendant to
say, “My lawyer wouldn't let me testify. Therefore I'm entitled to a new
trial.” That’s what Underwood did. His affidavit, which is the only
evidence bearing on the question, states, so far as pertinent here, “I was
denied the opportunity to testify at my own trial in that I told my
attorney that I wished to testify on my own behalf. My attorney told me
I could not testify.”
We agree with the First Circuit’s ruling in Siciliano v. Vose, 834 F.2d 29,
31 (1st Cir. 1987), that this barebones assertion by a defendant, albeit
made under oath, is insufficient to require a hearing or other action on
his claim that his right to testify in his own defense was denied him. It
just is too facile a tactic to be allowed to succeed. Some greater
particularity is necessary—and also we think some substantiation is
necessary, such as an affidavit from the lawyer who allegedly forbade
his client to testify-to give the claim sufficient credibility to warrant a
further investment of judicial resources in determining the truth of the
claim.
Id.

16

-There_is-no-evidence_tQ_support-Edwards’.s-claim__ Edwards _only_offers_his.
conclusory statement that counsel denied him his constitutional right to testify at
trial. “Standing alone, such self-serving statements cannot be allowed to succeed or
the criminal judicial process would become unworkable.” Turcios v. Dretke, 97-CV0515, 2005 WL 3263918, at *6 (S.D. Tex. Nov. 29, 2005) (citing Underwood, 939 F.2d
at 475-76).
Edwards points to an absence in the record of a waiver of his right to testify.
ECF No. 1-2 at 30. “As the Courts have recognized, albeit in other contexts, ‘the
absence of evidence does not equal evidence of absence.’” Bolivar v. Davis, L18-CV139, 2019 WL 7593279, at *8 (S.D. Tex. Oct. 23, 2019), report and recommendation
adopted, 2020 WL 242425 (S.D. Tex. Jan. 16, 2020) (quoting Johnson v. PPI Tech.
Servs., L.P., 613 F. App’x 309, 312 (5th Cir. 2015). The fact that the record is silent
about Edwards’s “lack of testimony is not conclusive — or even implicit — proof that
he was denied his constitutional right to testify.” Id. The record is similarly devoid
of any evidence that Edwards wished to testify and was prevented by his attorney
from doing so. See id.
The state courts made a factual finding that Edwards did not establish
sufficient facts to demonstrate that his rights were violated.

This Court must

presume that the state court’s factual findings were correct. 28 U.S.C. § 2254(e)(1).
Edwards cannot overcome that presumption. The record does not indicate that
Edwards was prevented from testifying, or that his alleged desire to testify was
rebuffed by his counsel or the trial court.

17

-F.-

Edwards-cannot-establish a constitutional violation regarding the jury
instruction on manslaughter.

Edwards alleges that the trial court gave an improper jury instruction on
manslaughter that placed the burden of proof on Edwards. ECF No. 1-2 at 31.
Specifically, Edwards complains that his constitutional rights were violated when the
trial judge instructed the jury: “The defendant bears the burden to prove, by a
preponderance of the evidence, that he acted in ‘sudden passion or heat of blood’ in
order for a verdict of manslaughter to be appropriate.” Id. Edwards presented this
claim to the state courts on post-conviction review. ECF No. 11-6 at 64, 164, 256.
The Louisiana Supreme Court held that Edwards failed to satisfy the burden of proof
as required by law. ECF No. 11'6 at 169.
Edwards cannot show that the instruction was erroneous. As the Louisiana
Second Circuit Court of Appeal noted on direct review: “In its charge, the trial court
correctly advised the jury as to the law applicable to this case, including: (l) the
required elements to proved [sic] the charged crime and any responsive verdicts; (2)
the law of specific intent; (3) self-defense! and (4) the aggressor doctrine.” State v.
Edwards, 49,635 (La. App. 2 Cir. 2/26/15); 162 So.3d 512, 516 n.3, writ denied, 20150628 (La. 2/5/16); 186 So.3d 1163.
Manslaughter is a responsive verdict to second-degree murder. See La. Code
Crim. P. art. 814(A)(3). According to the Louisiana Supreme Court:
Manslaughter is a homicide which would be either first or second degree
murder, but the offense is committed in sudden passion or heat of blood
immediately caused by provocation sufficient to deprive an average
person of his self control and cool reflection. La.R.S. 14:3l(l). Thus, the
presence of “sudden passion” or “heat of blood” distinguishes
18

manslaughter-from-murder.—The-court-has-stated-on-several-occasions,however, that “sudden passion” and “heat of blood” are not elements of
the offense of manslaughter; rather, they are mitigatory factors in the
nature of a defense which exhibit a degree of culpability less than that
present when the homicide is committed without them. State v.
Tompkins, 403 So.2d 644 (La.l98l); State v. Temple, 394 So.2d 259 (La.
1981); State v. Peterson, 290 So.2d 307 (La. 1974). Since they are
mitigatory factors, a defendant who establishes by a preponderance of
the evidence that he acted in a “sudden passion” or “heat of blood” is
entitled to a manslaughter verdict. Where such proof has been
introduced, a second degree murder verdict is inappropriate.
State v. Lombard, 486 So.2d 106, 110-11 (La. 1986) (footnotes omitted). Thus, it is
the defendant’s burden to prove by a preponderance of the evidence that he acted in
“sudden passion” or “heat of blood” for a verdict of manslaughter to be appropriate
where second-degree murder is charged. See Lewis v. Rader, CIV.A. 11-2665, 2012
WL 2280093, at *9 (E.D. La. Apr. 18, 2012), report and recommendation adopted, 11CV-2665, 2012 WL 2280097 (E.D. La. June 18, 2012) (citing State v. Robinson, 754
So.2d 311 (La. App. 2d Cir. 2000).
Because the trial court correctly instructed the jury regarding Edwards’s
obligation to show “sudden passion” or “heat of blood,” Edwards cannot establish that
the state court’s denial of his claim was unreasonable or contrary to any established
federal law. 28 U.S.C. § 2254(d).

G.

Edwards cannot establish ineffective assistance of counsel.

Edwards contends that he was denied effective assistance of counsel because
his attorney did not call Edwards to testify and because he failed to object to the
manslaughter jury instruction.

ECF No. 1-2 at 33.

Edwards exhausted the

ineffective claim on post-conviction review. ECF No. 11-6 at 55, 165, 221. The trial

19

pourt-found .that-Edwards’s.claim_was meritless. Id. at 238~39. The court of appeal
denied the writ on the showing made. Id. at 240. The Louisiana Supreme Court held
that Edwards did not show ineffective assistance. Id. at 269.
The standard articulated in Strickland v. Washington, 466 U.S. 668 (1983),
applies to claims alleging an attorney’s interference with the right to testify. United
States v. Willis, 273 F.3d 592, 598 (5th 2001) (citing Sayre v. Anderson, 238 F.3d 631
634 (5th Cir. 2001)). An ineffective assistance of counsel claim requires a showing
that: (l) counsel’s performance was legally deficient; and (2) the deficiency prejudiced
the defense. United States v. Bernard, 762 F.3d 467, 471 (5th Cir. 2014) (citing
Strickland v. Washington, 466 U.S. 668, 687 (1984)).
“As to the first prong, the proper standard for evaluating counsel’s
performance is that of reasonably effective assistance, considering all of the
circumstances existing as of the time of counsel’s conduct.” Bernard, 762 F.3d at 471.
Deficient performance is that which falls “below an objective standard of
reasonableness.” Strickland, 466 U.S. at 688. This standard is highly deferential.
“Recognizing the ‘temptation for a defendant to second-guess counsel’s assistance
after conviction or adverse sentence,”’ the Supreme Court has cautioned that “counsel
should be ‘strongly presumed to have rendered adequate assistance and made all
significant decisions in the exercise of reasonable professional judgment.’” Bernard,
762 F.3d at 471 (quoting Strickland, 466 U.S. at 690).
Because the state courts denied the claim on the merits, the combined
standards of review under Strickland and § 2254(d) are “doubly deferential.”

20

-Pinholster^oQS-U.S^a,t-lQO_Under-§.2254(d)._the_Court.must determine “whether
there is any reasonable argument that counsel satisfied Strickland’s deferential
standard.” Harrington, 562 U.S. at 105.
A bare and conclusory assertion of the denial of the right to testify by counsel
is insufficient to establish ineffective assistance under Strickland. See United States
v. Martinez, 181 F.3d 627, 628 (5th Cir. 1999) (citing Underwood, 939 F.2d at 476).
Edwards argues that, if he had testified at trial like he did before the grand
jury, he could have proven he acted in self-defense. However, Edwards’s argument is
belied by the fact that his testimony before the grand jury resulted in an indictment
for second-degree murder. Thus, Edwards cannot establish that his testimony would
have helped his case, or that his attorney violated his constitutional rights by not
calling Edwards to testify.

Edwards cannot show that the state courts’ rulings

regarding his attorney’s strategy were objectively unreasonable.
Likewise, Edwards cannot establish a violation as to his attorney’s failure to
object to the manslaughter jury instruction. The trial court correctly instructed the
jury regarding Edwards’s obligation to show “sudden passion” or “heat of blood.” See
Lombard, 486 So.2d at 110-11. “Failure to raise a meritless objection is not ineffective
lawyering; it is the very opposite.” Clark v. Collins, 19 F.3d 959, 966 (5th Cir. 1994),
cert, denied, 513 U.S. 966 (1994).
Edwards complains that trial counsel also rendered ineffective assistance by
not calling other witnesses on his behalf to support his self-defense claim.
“[Clomplaints of uncalled witnesses are not favored in federal habeas review because

21

allegations^of-what-the-witness-would-have.testified.are.largely.speculatiye.’^.&i/a^s.
v. Cockrell, 285 F.3d 370, 377 (5th Cir. 2002).
Edwards cannot establish that the state court’s denial of his claim was
contrary to or an unreasonable application of any established federal law. 28 U.S.C.
§ 2254(d).
H.

Edwards cannot establish cumulative error.

Edwards claims the cumulative effect of the errors raised denied him of a
fundamentally fair adversarial proceeding and effective assistance of counsel as
guaranteed by the Sixth and Fourteenth Amendments.

ECF No. 1-2 at 39-40.

Edwards presented this claim on post-conviction review. ECF No. 11-6 at 70, 180,
221.
Cumulative error on federal habeas review is a narrow and rare form of due
process violation. See Derden v. McNeel, 978 F.2d 1453, 1461 (5th Cir. 1992) (en
band. The petitioner must show that: (l) the individual errors involved matters of
constitutional dimension rather than mere violations of state law! (2) the errors were
not procedurally defaulted for habeas purposes! and (3) the errors “so infected the
entire trial that the resulting conviction violates due process.” Id. (citing Cupp v.
Naughten, 414 U.S. 141, 147 (1973)). A habeas petitioner may not just complain of
unfavorable rulings or events in an effort to cumulate errors. See id.
Edwards has not established individual errors of constitutional dimension, so
a cumulative error analysis is not warranted.

22

m.

Conclusion

Because Edward’s claim regarding the introduction of grand jury testimony is
procedurally defaulted, and the remaining claims are without merit, IT IS
RECOMMENDED that Edwards’s Petition (ECF No. l) be DENIED AND
DISMISSED WITH PREJUDICE.
Under the provisions of 28 U.S.C. § 636(b)(1)(c) and Fed.R.Civ.P. 72(b), parties
aggrieved by this Report and Recommendation have fourteen (14) calendar days from
service of this Report and Recommendation to file specific, written objections with
the Clerk of Court. A party may respond to another party’s objections within fourteen
(14) days after being served with a copy thereof.

No other briefs (such as

supplemental objections, reply briefs, etc.) may be filed. Providing a courtesy copy of
the objection to the undersigned is neither required nor encouraged. Timely
objections will be considered by the District Judge before a final ruling.
Failure to file written objections to the proposed findings, conclusions, and
recommendations contained in this Report and Recommendation within fourteen (14)
days from the date of its service, or within the time frame authorized by Fed.R.Civ.P.
6(b), shall bar an aggrieved party from attacking either the factual findings or the
legal conclusions accepted by the District Judge, except upon grounds of plain error.
Pursuant to Rule 11(a) of the Rules Governing Section 2254 Cases in the
United States District Courts, this Court must issue or deny a certificate of
appealability when it enters a final order adverse to the applicant. Unless a circuit
justice or district judge issues a certificate of appealability, an appeal may not be

23

-tak-en—to—tho-eour-t-of-appeals.—Within—14-days-from-service-of-this-Report-and
Recommendation, the parties may file a memorandum setting forth arguments on
whether a certificate of appealability should issue. See 28 U.S.C. § 2253(c)(2). A
courtesy copy of the memorandum shall be provided to the District Judge at the time
of filing.
THUS DONE AND SIGNED in Alexandria, Louisiana, on this 14th /lav of
February 2020.
i
i
JOSEPH H.E. PEREZ-MONTES
UNITED STATES MAGISTRATE JUDGE

24

U.S. District Court
Western District of Louisiana
Notice of Electronic Filing
The following transaction was entered on 2/14/2020 at 3:28 PM CST and filed on 2/14/2020
Case Name:

Edwards v. Vannoy

Case Number:

5:18-cv-01007-SMH-JPM

Filer:
Document Number:

12

Docket Text:
REPORT AND RECOMMENDATIONS IT IS RECOMMENDED that re [1] Petition for Writ
of Habeas Corpus filed by Derrick Edwards be denied and dismissed with prejudice. Objections
to R&R due by 2/28/2020. Signed by Magistrate Judge Joseph H L Perez-Montes on 2/14/2020.
(crt,Roaix, G)

APPENDIX “C”

State v. Edwards | WestlawNext

https://nextcorrectinnal.westlaw.com/Document/I39e6c8cce6abll...

WESTLAW
State v. Edwards
'SupremB‘Comroftoulsianar~FBbmaTy5, 201«^'-186So.3d 1163-(Mem)—2<M5-G628-(La-2/5/46)—(Appmx^-paga)^

186 So.3d 1163 (Mem)

r

Supreme Court of Louisiana.

STATE of Louisiana
v.

Derrick EDWARDS.
No. 2015-K-0628.
Feb. 5, 2016.
Opinion
In re Derrick Edwards;—Defendant; Applying For Writ of Certiorari and/or Review, Parish of
Caddo, 1st Judicial District Court Div. 3, No. 297,401; to the Court of Appeal, Second Circuit,
No. 49,635—KA.
Denied.

HUGHES, J., would grant.
All Citations
186 So.3d 1163 (Mem), 2015-0628 (La. 2/5/16)

End of

© 2021 Thomson Reuters. No daim to original U.S. Government Works.

Document

WestlawNext. © 2021 Thomson Reuters

1 of 1

tiff’s Thomson neuwBS
Thomson Reuters fanotproviding legal advice

7/24/21,1:16 PM

APPENDIX “D”

State v. Edwards | WestlawNext

https://nextcorrect> nnal.westlaw.com/Document/I9fbb4f2dbe4911...

WESTLAW
State v. Edwards
•Coort'Of'AppBalTJfCoDlsIararSBWnB'CireOitrT'FgbrU'ary 26r2015'i^62'SS3a^12-pt9335'ri57App72T;ir2n6n5)'*TApprox. 16 pages)

162 So.3d 512
Court of Appeal of Louisiana,
Second Circuit.

STATE of Louisiana, Appellee
v.

Derrick EDWARDS, Appellant.
No. 49,635-KA.
Feb. 26, 2015.
Synopsis
Background: Defendant was convicted in the First Judicial District Court, Caddo Parish,
No. 297,401, Brady D. O'Callaghan, J„ of second-degree murder. He appealed.

Holdings: The Court of Appeal, Drew, J., held that:
1 evidence was sufficient to support finding of intent required for conviction, and
2 evidence was insufficient to demonstrate that defendant reasonably believed he was in
imminent danger of losing his life or that killing victim was necessary to save his own life, as
required for justification defense.
Affirmed.
West Headnotes (16)
Change View

I
1

Criminal Law Cr3*1 Weight and conclusiveness in general
Direct evidence provides proof of the existence of a fact, for example, a witness's
testimony that he saw or heard something.

2

Criminal Law

Circumstantial Evidence

Circumstantial evidence provides proof of collateral facts and circumstances,
from which the existence of the main fact may be inferred according to reason
and common experience.

3

Criminal Law C"33" Degree of proof
When jurors reasonably reject the hypothesis of innocence advanced by a
defendant, the hypothesis falls, and the defendant is guilty unless there is another
hypothesis which raises a reasonable doubt.

4

Criminal Law C*3* Weighing evidence
Criminal Law 0s®3' Credibility of Witnesses

(

Where there is conflicting testimony about factual matters, the resolution of which
depends upon a determination of the credibility of the witnesses, the matter is
one of the weight of the evidence, not its sufficiency.

5

Criminal Law ©==> Credibility of witnesses in general
Criminal Law Cr53 Credibility of Witnesses
Criminal Law

Province of jury or trial court

The trier of fact is charged to make a credibility determination and may, within the
bounds of rationality, accept or reject the testimony of any witness in whole or in
part; the reviewing court may impinge on that discretion only to the extent
necessary to guarantee the fundamental due process of law. U.S.C.A.
Const. Amend. 14.

1 of 9

7/24/21,1:18 PM

State v. Edwards | WestlawNext

https://nextcorrectional.wesdaw.com/Document/I9fbb4f2dbe4911...

6

Criminal Law G3® Province of jury or trial court

~~

A victim's or witness’s testimonv-alone-is-usuallv-sufficient.to.suoport.the verdict,

Criminal Law Or*3, Character of witnesses or testimony in general
as appellate courts will not second-guess the credibility determinations of the fact
finder beyond the constitutional standard of sufficiency.

7

Criminal Law

Credibility of witnesses in general

In the absence of internal contradiction or irreconcilable conflict with physical
evidence, one witness's testimony, if believed by the fact finder, is sufficient
support for a requisite factual conclusion.
1 Case that cites this headnote
8

Homicide 0s*

Intent or mens rea

Specific intent required for second-degree murder conviction may be inferred
from the circumstances surrounding the offense and the conduct of the
defendant. LSA-R.S. 14:10(1).

9

Homicide

Intent or Mens Rea

Homicide C~=’ Intent to injure or cause bodily harm
The stabbing of a victim in the chest with a knife is such an act that indicates a
specific intent to kill or to inflict great bodily harm. LSA-R.S. 14:10(1).
1 Case that cites this headnote
10

Criminal Law O—1

Elements of offenses

Criminal Law

Particular issues or elements

Criminal Law €^ Reasonable doubt
Criminal Law O5* Particular issues or elements
The determination of whether the requisite intent is present in a criminal case is
for the trier of fact; in reviewing the correctness of such a determination, the court
should review the evidence in a light most favorable to the prosecution and must
determine if the evidence is sufficient to convince a reasonable trier of fact of the
guilt of the defendant beyond a reasonable doubt as to every element of the
offense.

11

Homicide Cr® Self-defense
Homicide 05* Degree of proof in general
When self-defense is raised as an issue by a defendant charged with murder, the
state has the burden of proving, beyond a reasonable doubt, that the homicide
was not perpetrated in self-defense. LSA-R.S. 14:20.
3 Cases that cite this headnote

12

Homicide

Reasonableness of belief or apprehension

Homicide 0s*

Duty to Retreat or Avoid Danger

Homicide

Manner or Means of Self-Defense

Factors to consider in determining whether a defendant had a reasonable belief
that the killing was necessary, so as to make homicide justifiable, include the
excitement and confusion of the situation, the possibility of using force or violence
short of killing, and the defendant's knowledge of the assailant's bad character;
the possibility of retreat may not be considered as a factor in determining whether
or not the defendant had a reasonable belief that deadly force was reasonable
and apparently necessary. LSA-R.S. 14:20(D).
2 Cases that cite this headnote
13

Criminal Law 6s Particular offenses
Criminal Law 0=* Particular issues or elements

2 of 9

7/24/21,1:18 PM

State v. Edwards | WestlawNext

https ://nextcorrecti onal.westlaw.com/Document/I9fbb4f2dbe4911...

When the defendant challenges the sufficiency of the evidence in a self-defense
homicide case, the question becomes whether, viewing the evidence in the light
most favorable to the prosecution, any rational trier of fact could have found
-beyond-a-reasonable-doubt-that-the-homicide was-not committedin self-defense
or in the defense of others. LSA-R.S. 14:20.
1 Case that cites this headnote
14

Homicide €■“' Withdrawal after aggression
In order to claim defense of justification in homicide case, not only must the
aggressor withdraw from the conflict, but the withdrawal must be in such a way
that the other person knows or should know of the desire to withdraw; if the
aggressor's withdrawal is not made sufficiently known to his adversary, he is not
eligible to claim the justification of self-defense for the homicide. LSA-R.S. 14:20.
2 Cases that cite this headnote

:

15

Homicide

Second degree murder

Evidence that defendant stabbed unarmed victim multiple times in chest area was
sufficient to support finding of intent required for conviction of second-degree
murder. LSA-R.S. 14:30.1 (A)(1).

16

Homicide 0^ Mutual combat
Homicide C"5" Apprehension of danger
Homicide C"

Amount of force

Evidence was insufficient to establish that defendant reasonably believed he was
in imminent danger of losing his life or that killing victim was necessary to save
his own life and, thus, defendant was not entitled to defense of justification in
second-degree murder prosecution; altercation between defendant and victim
began as fist fight, with defendant elevating fight with use of blade, witness
confirmed that defendant could have retreated to witness's house rather than
provoke deadly struggle, and there was no evidence that defendant attempted to
withdraw from situation prior to using deadly force. LSA-R.S. 14:20.
1 Case that cites this headnote

Attorneys and Law Firms
*513 Washington & Wells, Shreveport, By: Alex J. Washington, for Appellant.
Charles Rex Scott II, District Attorney, Dale G. Cox, Tommy Jan Johnson, George Winston
III, Assistant District Attorneys, for Appellee.
*514 Before STEWART, DREW and GARRETT, JJ.

Opinion
DREW, J.
"1 Derrick Edwards was convicted of second degree murder, in violation of La. R.S.
14:30.1. He was sentenced to life imprisonment at hard labor, without benefit of parole,
probation, or suspension of sentence.
He appeals, urging two assignments of error. We affirm.
FACTS
Derrick Edwards and Patricia Cathron are the parents of Shanderricka Edwards. When
Shanderricka was three years old, her father abandoned her and had little to do with her for
the next 14 years.
On June 4, 2011, Shanderricka was 17 years of age. She lived in Shreveport in a duplex
with her mother.
Tomika Adams, age 30, resided in the upstairs apartment of the duplex. In the preceding few
months, both Tomika and Shanderricka had been involved with 27-year-old Tyrone Miles, a
point of contention between the two women.

3 of 9

7/24/21,1:18 PM

State v. Edwards | WestlawNext

https://nextcorrectionaI.westlaw.com/Document/I9fbb4f2dbe4911...

Katrina Brown lived two houses from the duplex. Diane Priest lived in a house next to
Katrina, three houses from the duplex. Tomika's mother, Everlerna Adams, lived across the
street diagonally. The defendant was a very personal friend with Lavonne Bell, who resided
■nearby:-------------------------------------------------------------------------------------------------------------------I. The Initial Argument
In the early afternoon of June 4, 2011, Shanderricka and Tomika argued about:
• a DVD player that Everlerna had loaned to Shanderricka; and
• Shanderricka's belief that Miles had gone back with Tomika.
Diane observed the argument from her front porch, testifying that its **2 duration was about
a half hour. Lavonne testified that Tomika refused to fight Shanderricka. The police were
called and both women were handcuffed, but not arrested. Lavonne called the defendant to
tell him that his daughter had been involved in an argument and was in handcuffs.
The defendant arrived and spoke with the officers. He and Shanderricka discussed the
argument, but were not angry with each other at that time.
II. The Argument Between Shanderricka's Parents
The defendant and Patricia argued about his disapproval of the relationship between
Shanderricka and Miles. Patricia and Shanderricka returned to the duplex. Miles later joined
them. The defendant remained in the street, still angry. He asked Lavonne and Tomika to
take his truck and go purchase beer. They did so.
After they left, the defendant was in the street in front of the Browns' house, talking to a
crowd of people, including Diane. Lavonne testified that when she left, the defendant was
not angry or upset.
III. The Father-Daughter Fight
Shanderricka and her young sister walked by the group of people, when she heard her
father saying that he was going to have Lavonne fight Patricia.1 Shanderricka told him that
he couldn't "do that” but that he could “whoop” her. Shanderricka asked her father why he
was talking about their family business in public. Shanderricka later said that he must have
thought she was disrespectful.
**3 Shanderricka was holding her two- or three-year-old sister when the argument began.
She put the child down and Katrina picked up the child. Shanderricka and *515 her father
began physically fighting. The defendant, age 37, grabbed his daughter, age 17, by her
throat and began hitting her in the face with his fists. Shanderricka fought back, but the
defendant pulled her to the ground by her hairpiece.
Patricia swung her crutch at the defendant, but missed. After the fight, Miles helped
Shanderricka and Patricia up, and walked them back to the duplex.
Shanderricka identified photographs showing scratches on her neck and bruises on her
face.
Everlerna testified that she saw the defendant hit his daughter, but said the marks on
Shanderricka's face and neck were caused by Patricia's crutch.
IV. Invitation to a Killing
After the fight, the defendant followed Miles, Shanderricka, and Patricia down the street,
challenging anyone to “come out to the street and get it.”
Shanderricka testified that:
• her father told Miles that he would “bust his butt";
• she told Miles not to worry about her father;
• her father continued to taunt and provoke Miles;
• she tried to restrain Miles, but he broke away and went into the street;
• it was dark, with minimal to no street lights working;
• ”4 Miles, age 27, and the defendant began fist-fighting;2

4 of 9

7/24/21,1:18 PM

State v. Edwards | WesdawNext

https://nextcorrectinnal.westlaw.com/Document/I9fbb4f2dbe4911...

• the fight lasted two to three minutes;
• she never saw Miles with a weapon;
• her father normally carried a pocket knife in his pants pocket; and
• she never saw the defendant stab Miles, though she saw Miles step backward and say,
“Man, you stabbed me.”
No one testified as to seeing the knife during the fight. Patricia saw Miles stagger into her
front yard, but did not know that he had been stabbed until he collapsed on the floor of the
duplex.
Diane heard someone say, "he didn't have to stab him.”
Shanderricka further testified that:
• Miles ran toward the duplex as the defendant remained in the street, yelling;
• Miles left a bloody handprint on the door of a vehicle parked in the yard;
• he entered the duplex and fell to the floor with blood pouring from his side;
• the photograph of the blood inside the doorway was accurate; and
• she called 911, but Miles lost consciousness before EMS arrived.
The defendant also called 911, reporting that he stabbed Miles. Lavonne said the defendant
could have come to her home instead of fighting.
V. The Investigation
Corporal Jennie Taylor, of the Shreveport Police Department, who was the first officer to
arrive at the scene, testified that:
• **5 as she exited her unit, the defendant blurted out that he had stabbed Miles;
• she detained the defendant in her vehicle;
• she made contact with Miles and assisted with crowd control;
• she asked the defendant for the knife and he gave it to her;
• the knife was later turned over to a crime scene investigator; and
• the knife shown her in court was the one received from the defendant.
*516 Sergeant Danny Duddy, supervisor of the Shreveport Police Department crime scene
unit, was the on-call crime scene investigator on June 4, 2011. Duddy identified photographs
that he took of the crime scene and the participants. He received an open pocketknife from
Corporal Taylor.
Dr. Long Jin, a forensic pathologist at LSU Health Sciences Center, conducted an autopsy
the next day, with these findings:
• cause of death was determined to be two sharp force wounds to the chest;
• manner of death was determined to be homicide;
• one wound was a stab wound, located slightly to the left of the middle chest;
• that wound penetrated the right ventricle of the heart;
• the right ventricle is easily penetrated by a two-inch deep jab with a knife;
• the second wound was also a stab wound to the heart;
• both wounds were administered with a knife or sharp object;
• either wound would have been fatal;
• Miles bled to death as a result of his wounds;
• **6 it would have taken a few minutes for Miles to die from his wounds;

5 of 9

7/24/21,1:18 PM

State v. Edwards | WesdawNext

https://nextcorrect'onal.wesdaw.com/Document/I9fbb4f2dbe4911...

• there was a possible defensive wound on the right elbow; and
• there was a slash wound to the right chest.
Trial started on January 28, 2014. The jury's verdict came two days later.
No post-trial motions were filed.
VI. This Appeal
Improper Use of Grand Jury Testimony
This listed assignment was not argued on appeal. Nonetheless, we have examined the trial
court's precise restrictions on the use of the previous contrary sworn testimony of several
witnesses. Without exception, the trial court's legal rulings on this issue were exemplary.
Moreover, the overwhelming evidence renders any perceived errors harmless beyond a
reasonable doubt.
Sufficiency
The defendant attacks his conviction, arguing that:
• the state did not prove that he had the specific intent to kill the victim;
• the state failed to produce a witness who saw him stab the victim;
• he acted in self-defense, having no means of retreat from the aggressor; and
• at most, these facts would sustain a manslaughter conviction.3
The state argues that the defensive wounds present on the victim's **7 body, along with
penetrating wounds to the heart, indicate the defendant’s specific intent to kill. The state
further argues that the defendant was the aggressor and is not entitled to claim self-defense.
The state asserts that the evidence reflects that the defendant stabbed an unarmed victim
twice in the heart during a fight, and that the defendant was the aggressor and made no
attempt to withdraw.
1

2

3

4

5

6

7

8

9

10

Our law on appellate review

of claims of evidentiary insufficiency is well settled,4 particularly in cases with factual
similarities to this prosecution.
11
15

12

13

14

*518 **8 Our law on justifiable homicide is also well settled.5

**9 This record provides overwhelming evidence of the stabbing, including a

confession from the defendant and a dying declaration from the victim.
Dr. Long Jin testified that Miles died as a result of two penetrating stab wounds to *519 the
chest, each of which pierced the right ventricle of his heart.
The defendant confessed to Corporal Taylor at the scene and gave her the knife he used to
stab Miles. The state proved beyond a reasonable doubt that the defendant inflicted the fatal
stab wounds.
The defendant's actions prove that he had the specific intent “to kill or to inflict great bodily
harm,” as required by La. R.S. 14:30.1(A)(1). It **f0 was not unreasonable for a trier of fact
to conclude that he actively desired the consequences of his actions, i.e., the death or great
bodily harm of the victim.
16

The defendant claims that he acted in self-defense, as he reasonably believed that

killing was necessary to defend himself.
The evidence reflects that this altercation began as a fist-fight and that it was the defendant
who elevated the fight with the use of a weapon. There was no evidence presented to
establish that the defendant reasonably believed that he was in imminent danger of losing
his life or that killing Miles was necessary to save his own life. Even Lavonne, a defense
witness, confirmed that he could have retreated to her house, rather than provoke the
deadly struggle.
The defendant was clearly the aggressor here.6 No evidence was presented that he
attempted to withdraw from the situation prior to his use of deadly force.

6 of 9

7/24/21, 1:18 PM

https://nextcorrec'ir>nal. westlaw.com/Document/I9fbb4f2dbe4911...

State v. Edwards | WestlawNext

There was nothing in the testimony of the witnesses which rendered their testimony
implausible, especially on the important points of the defendant being the aggressor and
never withdrawing from the conflict with Miles.
This court does not assess the credibility of witnesses or reweigh evidence. Great deference

•<

is given to the jury's determinations of credibility.
"11 When viewing the evidence in the light most favorable to the prosecution, the trier of
fact could have found, beyond a reasonable doubt, that this senseless murder was not
committed in self-defense.
Further, a rational trier of fact could have found the essential elements of the crime of
second degree murder were proven beyond a reasonable doubt.
DECREE
The defendant's conviction and sentence are AFFIRMED.
All Citations
162 So.3d 512, 49,635 (La.App. 2 Cir. 2/26/15)
Footnotes
1
2

Patricia, the mother of Shanderricka, was an amputee.
Katrina and Patricia also witnessed Miles walk into the street and fight with the
'defendant. Patricia saw the men swinging at each other in a side-to-side
motion.

3

In its charge, the trial court correctly advised the jury as to the law applicable
to this case, including: (1) the required elements to proved the charged crime
and any responsive verdicts; (2) the law of specific intent; (3) self-defense; and
(4) the aggressor doctrine. The jury deliberated over four hours.

4

A claim of insufficient evidence is determined by whether, on the entire record,
a rational trier of fact could find the defendant guilty beyond a reasonable
doubt. Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781, 61 L.Ed.2d 560
(1979). On review, the appellate court considers whether, after viewing the

v

evidence in the light most favorable to the prosecution, any rational trier of fact
could have found the essential elements of the crime proven beyond a
reasonable doubt. Jackson v. Virginia, supra; State v. Tate, 2001-1658
(La.5/20/03), 851 So.2d 921, cert, denied, 541 U.S. 905, 124 S.Ct. 1604, 158
L.Ed.2d 248 (2004); State v. Crossley, 48,149 (La.App.2d Cir.6/26/13), 117
So.3d 585, writ denied, 2013-1798 (La.2/14/14), 132 So.3d 410. The
appellate court does not assess the credibility of witnesses or reweigh
evidence, and gives great deference to the jury's decision to accept or reject
the testimony of a witness or the weight the jury gives to direct or
circumstantial evidence. State v. Smith, 94-3116 (La. 10/16/95), 661 So.2d
442; State v Eason, 43,788 (La.App.2d Cir.2/25/09), 3 So.3d 685, writ denied,
2009-0725 (La.12/11/09), 23 So.3d 913, cert, denied, 561 U.S. 1013, 130
S.Ct. 3472, 177 L.Ed.2d 1068 (2010).
Direct evidence provides proof of the existence of a fact, for example, a
witness's testimony that he saw or heard something. State v. Lilly, 468 So.2d
1154 (La. 1985). Circumstantial evidence provides proof of collateral facts
and circumstances, from which the existence of the main fact may be
inferred according to reason and common experience. Id. When the state
relies on circumstantial evidence to establish the existence of an essential
element of a crime, the court must assume every fact that the evidence
tends to prove and the circumstantial evidence must exclude every
reasonable hypothesis of innocence. La. R.S. 15:438. State v. Lilly, supra;
State v. Robinson, 47,437 (La.App.2d Cir.11/14/12), 106 So.3d 1028, writ
denied, 2012-2658 (La.5/17/13), 117 So.3d 918.
The trier of fact is charged with weighing the credibility of this evidence and
on review, the same standard as in Jackson v. Virginia is applied, giving

7 of 9

7/24/21,1:18 PM

State v. Edwards | WestlawNext

https://nextcorrectional.westlaw.com/Document/I9fbb4f2dbe4911...
#
great deference to the fact finder's conclusions. When jurors reasonably
reject the hypothesis of innocence advanced by a defendant, the hypothesis
falls, and the defendant is guilty unless there is another hypothesis which
■ra ises-a-reasonable-doubt—Sfafe-v-Sosa-20Q5-G2-1-3-(ba-1/-19/Q6),-921------So.2d 94; State v. Captville, 82-2206 (La.2/27/84), 448 So.2d 676.
Where there is conflicting testimony about factual matters, the resolution of
which depends upon a determination of the credibility of the witnesses, the
matter is one of the weight of the evidence, not its sufficiency. State v.
Glover, 47,311 (La.App.2d Cir.10/10/12), 106 So.3d 129, writ denied,
2012-2667 (La.5/24/13), 116 So.3d 659; State v. Speed, 43,786 (La.App.2d
Cir. 1/14/09), 2 So.3d 582, writ denied, 2009-0372 (La.11/6/09), 21 So.3d
299. The trier of fact is charged to make a credibility determination and may,
within the bounds of rationality, accept or reject the testimony of any witness
in whole or in part; the reviewing court may impinge on that discretion only
to the extent necessary to guarantee the fundamental due process of law.
State V. Casey, 99-0023 (La.1/26/00), 775 So.2d 1022, cert, denied, 531
U S. 840, 121 S.ct. 104, 148 L.Ed.2d 62 (2000); State v. Woodard, 47,286
(La.App.2d Cir. 10/3/12), 107 So.3d 70, writ denied, 2012-2371 (La.4/26/13),
112 So,3d 837.
A victim's or witness's testimony alone is usually sufficient to support the
verdict, as appellate courts will not second-guess the credibility
determinations of the fact finder beyond the constitutional standard of
sufficiency. State v. Davis, 02-1043 (La.6/27/03), 848 So.2d 557. In the
absence of internal contradiction or irreconcilable conflict with physical
evidence, one witness's testimony, if believed by the fact finder, is sufficient
support for a requisite factual conclusion. State v. Robinson, 02-1869
(La.4/14/04), 874 So.2d 66.
Applicable Law-Second Degree Murder, La. R.S. 14:30.1
Second degree murder is defined as the killing of a human being "[wjhen the
offender has a specific intent to kill or to inflict great bodily harm.” La. R.S.
14:30.1(A)(1). Specific intent is the state of mind that exists when the
circumstances indicate that the offender actively desired the prescribed
criminal consequences to follow his act or failure to act. La. R.S. 14:10(1);
State v. Lindsey, 543 So.2d 886 (La.1989), cert, denied, 494 U.S. 1074, 110
S.ct. 1796, 108 L.Ed.2d 798 (1990); State v. Davies, 35,783 (La.App.2d
Cir.4/05/02), 813 So.2d 1262, writ denied, 2002-1564 (La.5/9/03), 843
So.2d 389, citing La. R.S. 14:10(1). Specific intent may be inferred from the
circumstances surrounding the offense and the conduct of the defendant.
State v. Draughn, 2005-1825 (La.01/17/07), 950 So.2d 583, cert, denied,
552 U.S. 1012, 128 S.Ct. 537, 169 L.Ed.2d 377 (2007).
The stabbing of the victim in the chest with a knife is such an act that
"indicates a specific intent to kill or to inflict great bodily harm.” State v. Tran,
1998-2812 (La.App. 1 Cir. 11/5/99), 743 So.2d 1275, 1291, writ denied,
1999-3380 (La.5/26/00), 762 So.2d 1101. In State v. Ruffins, 597 So.2d 171
(La.App. 2d Cir. 1992), this court held that evidence showing that the
defendant intentionally thrust a knife blade five inches into a victim's chest
was sufficient to prove that the defendant had the specific intent to kill or aj
least inflict great bodily harm. Likewise, in State v. Martinez, 09-740
(La.App. 5 Cir. 3/23/10), 38 So.3d 926, the court held that stabbing a victim
multiple times, even if the deepest wound inflicted was not life threatening,
was an act in furtherance of the intent to kill.
The determination of whether the requisite intent is present in a criminal
case is for the trier of fact. State v. Huizar, 414 So.2d 741 (La. 1982). In
reviewing the correctness of such a determination, the court should review
the evidence in a light most favorable to the prosecution and must
determine if the evidence is sufficient to convince a reasonable trier of fact
of the guilt of the defendant beyond a reasonable doubt as to every element
of the offense. Jackson v. Virginia, supra; State v. Huizar, supra.

i

8 of 9

7/24/21,1:18 PM

L

State v. Edwards | WestlawNext

5

/

https://nextcorrectional.westlaw.coin/Docunient/I9fbb4f2dbe4911...

La. R.S. 14:20 Justifiable homicide, provides, in pertinent part:
A homicide is justifiable:
.(1.)-When.committed.in.self;defense.bv.one_whO-reasonablv believes that
he is in imminent danger of losing his life or receiving great bodily harm
and that the killing is necessary to save himself from that danger.
(2) When committed for the purpose of preventing a violent or forcible
felony involving danger to life or of great bodily harm by one who
reasonably believes that such an offense is about to be committed and
that such action is necessary for its prevention. The circumstances must
be sufficient to excite the fear of a reasonable person that there would be
serious danger to his own life or person if he attempted to prevent the
felony without the killing.
When self-defense is raised as an issue by a defendant, the state has the
burden of proving, beyond a reasonable doubt, that the homicide was not
perpetrated in self-defense. State v. Johnson, 41,428 (La.App.2d
Cir.9/27/06), 940 So.2d 711,716, writ denied, 2006-2615 (La.5/18/07), 957
So.2d 150; State v. Garner, 39,731 (La.App. 2d Cir.9/08/05), 913 So.2d 874,
writ denied, 2005-2567 (La.5/26/06), 930 So.2d 19. Factors to consider in
determining whether a defendant had a reasonable belief that the killing was
necessary include the excitement and confusion of the situation, the
possibility of using force or violence short of killing, and the defendant's
knowledge of the assailant's bad character. State v. Johnson, supra. The
possibility of retreat may not be considered as a factor in determining
whether or not the defendant had a reasonable belief that deadly force was
reasonable and apparently necessary. La. R.S. 14:20(D).

\
When the defendant challenges the sufficiency of the evidence in a selfdefense case, the question becomes whether, viewing the evidence in the
light most favorable to the prosecution, any rational trier of fact could have
found beyond a reasonable doubt that the homicide was not committed in
self-defense or in the defense of others. State v. Davis, 46,267 (La.App.2d
Cir.5/18/11), 69 So.3d 538, writ denied, 2011-1561 (La.1/13/12), 77 So.3d
952. There is ample jurisprudence suggesting that the use of deadly force
against an unarmed victim, even in the midst of a physical altercation, may
be an excessive use of force. State v. Ingram, 45,546 (La.App.2d
Cir.6/22/11), 71 So.3d 437, writ denied, 2011-1630 (La.1/11/12), 77 So.3d
947; State v. Fields, 38,496 (La.App.2d Cir.6/23/04), 877 So.2d 202, writ
denied, 2004-1865 (La. 11/24/04), 888 So.2d 229.
A person who is the aggressor or who brings on a difficulty cannot claim
self-defense, unless he withdraws from the conflict in good faith. La. R.S.
14:21. Not only must the aggressor withdraw from the conflict, but the
withdrawal must be in such a way that the other person “knows or should
know" of the desire to withdraw. If the aggressor's withdrawal is not made
sufficiently known to his adversary, he is not eligible to claim the justification
of self-defense for the homicide. State v. Wells, 2011-0744 (La.App. 4 Cir.

r

7/11/14), 156 So.3d 150.
6

The defendant argues that Miles was the aggressor because he left the safety
of the front yard to confront him. However, Miles, Shanderricka, and Patricia
testified that they retreated after the initial fight between father and daughter.
The defendant followed them, rather than end the conflict. Katrina, Patricia,
and Shanderricka all testified that the defendant taunted Miles.

End of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Document

WestlawNext. © 2021 Thomson Reuters

9 of 9

HlH THOMSON MUtm
Thomson Reuters is:hot'providing tegat edvice

7/24/21,1:18 PM

APPENDIX “E”

itta

STATE OF LOUISIANA
VERSUS
DERRICK EDWARDS

Jsso

NUMBER 297,401, SECTION 3

' SIP 29
2016
\ .

I-IRST JUDICIAL DISTRICT COURT

rx/7 CADDO PARISH, LOUISIANA

I y

CADDO PARISH, LOUISIANA

RULING
Currently before the Court is an “Application for Post-Conviction Relief’ (“Application”)
filed by Derrick Edwards (“Petitioner”) filed on August 31, 2016. For the reasons that follow
below, Petitioner’s Application is DENIED.
On January 30, 2014, Petitioner was convicted of Second Degree Murder and sentenced
to life in prison without the benefit of probation or parole. Petitioner’s conviction and sentence
were affirmed on appeal. State v. Edwards, 49,635 (La. App. 2d Cir. 2/26/15), 162 So.3d 512,
writ denied, 2015-0628 (La. 2/5/16), 186 So.3d 1163.
Petitioner asserts that he was denied effective assistance of counsel in that his trial
'

attorney allegedly refused to let him testify, thereby denying Petitioner constitutional rights
guaranteed to him under the Fifth, Sixth, and Fourteenth Amendments. Petitioner also claims that
the trial judge denied Petitioner of a fair trial by giving an erroneous instruction to the jury.
To succeed on an ineffective assistance of counsel claim, Petitioner must first satisfy the
test set forth by the United States Supreme Court in Strickland v. Washington, 466 U.S. 668
(1984). Petitioner must show (1) that counsel’s performance was deficient, (2) that the deficiency
prejudiced him, (3) and that counsel’s error was so serious that it violated Petitioner s right to
effective assistance of counsel as guaranteed by the Sixth Amendment of the United States
Constitution. Id. at 686. The Petitioner must prove actual prejudice before relief will be granted.
It is not sufficient for the Petitioner to show that the error had some conceivable effect on the
outcome of the proceedings. Rather, he must show that, but for counsel’s unprofessional errors,
there was a reasonable probability the outcome would be different. Id. at 693. The performance
and conduct of the defense attorney must be evaluated from that counsel’s perspective at the time
of the occurrence. Petitioner has not met his burden under Strickland of showing a different
outcome.
Petitioner has failed to show that counsel’s performance was deficient, that it prejudiced
him, and that the error was so serious that it violated his right to effective assistance of counsel.
Further, even if Petitioner can show an error, it is not sufficient to merely show that the error had

■t

some conceivable effect on the outcome of the proceedings, he has to show that butfor the error,
there was a reasonable probability that the outcome would' berlifferent.-----------— —---- —-—
Petitioner also claims that the trial judge denied Petitioner of a fair trial by erroneously
instructing the jury regarding responsive verdicts. Petitioner alleges that the trial court
improperly instructed the jury on the charge of Manslaughter as a responsive verdict. This issue
was already addressed on appeal by the Second Circuit in Footnote 3 of their opinion wherein the

Court stated that the “the trial court correctly advised the jury as to the law applicable to this
case, including: (1) the required elements to prove[] the charged crime and any responsive
verdicts[.]” Edwards, 162 So.3d at 517. This claim is repetitive under La. C. Cr. P. art. 930.4
and should be dismissed.
Accordingly, this motion is DENIED. The Clerk of Court is directed to provide a
copy of this Ruling to the District Attorney and Petitioner.
Signed this^-^ day of September, 2016, iii Shreveport, Caddo Parish, Louisiana.

BRADY D. 0/'CALLA<aH>r>J
DISTRICT JUDGE'''----- -

DISTRIBUTION:
Derrick Edwards**"^ 2_l 8*5^
Louisiana State Penitentiary
Angola, LA 70712

Caddo Parish District Attorney’s Office
501 Texas Street, 5th Floor
Shreveport, LA 71101

ENDORSED FILED

FARONJ3LAN’cv. Deputy Clerk

SER/3 0 lC[<t>
CA^OPARISH DEPUTY CLER^

APPENDIX “F”

STATE OF LOUISIANA
COURT OF APPEAL, SECOND CIRCUIT
430 Fannin Street
Shreveport, LA 71101
(318) 227-3700
NO:

51363-KH

STATE OF LOUISIANA
VERSUS
DERRICK EDWARDS
FILED: 10/27/i 6
RECEIVED: PM 10/21/16
On application of Derrick Edwards for POST CONVICTION RELIEF in
No. 297,401 on the docket of the First judicial District, Parish of CADDO, Judge
Brady D. O'Callaghan.
Counsel for:
Derrick Edwards
Pro se
Counsel for:
State of Louisiana

James Edward Stewart, Sr.

Before BROWN, WILLIAMS, and CARAWAY, JJ.
WRIT DENIED.
Applicant Derrick DeWayne Edwards seeks supervisory review of the trial
court’s denial of his application for post-conviction relief : On the showing made,
this writ is hereby denied. La. C. Cr. P. arts. 841, 930.2; Strickland v. Washington,
466 U.S. 668, 104. S. Ct. 2052, 80 L. Ed. 2d 674 (1984); State v. Hampton,
00-0522 (La. 03/22/02), 818 So. 2d 720; State v. Blank, 16-0213 (La. 05/13/16),
192 So. 3d. 93. Edwards is not precluded from obtaining the requisite support to
substantiate his allegation that he was denied the right to testify in his own behalf.
State v. Davis, 15-1934 (La. 09/23/16), 199 So. 3d 1139.
Shreveport, Louisiana, this

^ day of '/)/?.

fALA-s

,2016.

X

.^TV/
FILED:
SECOND CIRCUIT COURT OF APPEAL
STATE OS LOUISIANA
Emloraed FUoi

)

0
LILLIAN EVANS RICHIE, CLERK OF COURT
A TRUE COPV-Attest

I i

APPENDIX “G”

ffifagSitpremg ffimtri cf ifrgjifafe nf ^Sumatra
STATE EX BEL. DERRICK EDWARDS
NO.

2017-KH-0232

VS.
STATE OF LOUISIANA

IN RE; Derrick Edwards; - Plaintiff; Applying For Supervisory and/or
1st Judicial District Court Div. H,
Remedial Writs, Parish of Caddo,
No. 297,401; to the Court of Appeal, Second Circuit, No. 51363-KH;

April 20, 2018;
Denied. See

I
I
per

curiam.
SJC
JLW

i

GGG
MRC

I
JTG
HUGHES, J.,

would grant the writ in part.

I

i
i
i
i

i

i

Supreme Court of Louisiana
April 20,2018

of Court
For Ithe Court
!

SUPREME COURT OF LOUISIANA
NO. 17-KH-0232
STATE EX REL. DERRICK EDWARDS
V.
APR 2 0 2018

STATE OF LOUISIANA

ON SUPERVISORY WRITS TO THE FIRST
JUDICIAL DISTRICT COURT, PARISH OF CADDO

SSL-PER CURIAM:
Denied. Relator fails to show he received ineffective assistance of counsel
under the standard of Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80
L.Ed.2d 674 (1984). As to his remaining claims, relator fails to satisfy his post­
conviction burden of proof. La.C.Cr.P. art. 930.2.
Relator has now fully litigated his application for post-conviction relief in
state court. Similar to federal habeas relief, see 28 U.S.C. § 2244, Louisiana post­
conviction procedure envisions the filing of a successive application only under the
narrow circumstances provided in La.C.Cr.P. art. 930.4 and within the limitations
period as set out in La.C.Cr.P. art. 930.8. Notably, the Legislature in 2013 La. Acts
251 amended that article to make the procedural bars against successive filings
mandatory. Relator’s claims have now been fully litigated in accord with La.C.Cr.P.
art. 930.6, and this denial is final. Hereafter, unless he can show that one of the
narrow exceptions authorizing the filing of a successive application applies, relator
has exhausted his right to state collateral review. The district court is ordered to
record a minute entry consistent with this per curiam.

•*
th

SUPREME COURT OF LOUISIANA
2017-KH-232
STATE EX REL. DERRICK EDWARDS
APR 2 0 2018

VS.
STATE OF LOUISIANA

ON SUPERVISORY WRITS TO THE 1st JUDICIAL DISTRICT COURT
FOR THE PARISH OF CADDO
j- Hughes, J. would grant the writ in part.

EXHIBIT
CHARGE TO THE JURY P.5

tw ■

NUMBER: 297,401 - SECTION 3
STATE OF LOUISIANA
FIRST JUDICIAL DISTRICT COURT
VERSUS
CADDO PARISH, LOUISIANA

DERRICK DEWAYNE EDWARDS

mr APfJr. TO THE JURY
MEMBERS OF THE JURY:
now heard all the evidence and the arguments of counsel.
You have
on the law that applies to this case and to your
It is now my duty to instruct you
and of the facts on the question of guilt or
deliberations. The jury is the judge of the law
jury has the duty to accept and apply the law as given by the court . The jury
innocence. The
alone shall determine the weight and the credibility of the evidence.

1

In deciding this case, you should not be

influenced by sympathy, passion, prejudice or

public opinion. You are expected to reach a just verdict.
ccused of a crime is presumed by law to be innocent until each
Under our law, a person a
to constitute his guilt, is proven beyond reasonable doubt. The
element of the crime, necessary
gofendan, is no, tortuirod to P™™ tost he is innocent. Th«s, toe defendant begins toe trial with a
clean slate.
An indictment is only a written, formal accusation against a defendant charging the
defendant with a crime. You are
defendant.

not to consider the indictment as evidence against the

You may not infer guilt from the mere filing of an indictment.

The burden of p

roof in a criminal case is upon the State to prove the defendant’s guilt

teyond a reasonable doubt. While toe state must prove

guilt beyond a reasonable doubt, it does

no, have to prove guilt beyond all possible doubt Reasonable doubt is doubt based on reason
and common sense and is present when, after you have careftilly co
(2?)

cannot say that you are firmly convinc

nsidered all the evidence, you

ed of the truth of the charg^ft^ the duty of the jury, in

to that evidence the law as given by the court, to give
considering the evidence and in applying
reasonable doubt arising out of the evidence or out of the lack
the defendant the benefit of every

1

4.'

of evidence in the case. It is the duty of the jury if not convinced of the guilt of a defendant
beyond a reasonable doubt, to find him not guilty.
The statements and the arguments made by the attorneys at any time during the trial are
not evidence.
The evidence which you should consider consists of the testimony of witnesses, as well
as any documents and exhibits which were introduced into evidence.
Evidence is either direct or circumstantial. Direct evidence is evidence which, if
believed, proves a fact Circumstantial or indirect evidence is evidence which, if believed,
proves a fact and from that fact you may logically and reasonably conclude that another fact
exists.
(t?)

|
You cannot find a defendant guilty solely on circumstantial evidence unless the facts

proven by the evidence exclude every reasonable hypothesis of innocence.
!
It is your duty, to determine the credibility of the witnesses and to determine how much
weight to give to the testimony of a witness. You may consider the probability or improbability
of the statements; their opportunities for knowledge of the facts to which they testify; their
i

reliability in noting and remembering facts; their demeanor on the witness stand; their interest or
|
lack of interest in the .outcome of the case; and the extent to which the testimony is supported or
contradicted by other evidence. You have the right to accept as true, or reject as false, the
i

testimony of any witness, in whole or in part, as you are impressed with his or her credibility.
If the state offers evidence of a statement by the defendant, you must first determine
whether the statement was in fact made. You must then consider whether the statement, if made,
was accurately recorded or repeated.
If you find that defendant made a statement, you must also determine the weight or value
that the statement should be accorded, if any. In determining the weight or value to be accorded
a statement made by a defendant, you should consider all the circumstances under which the
statement was made. In making that determination, you should consider whether the statement

2

was made freely and voluntarily, without the influence of fear, duress, threats, intimidation,
inducement, or promises.
The defendant is not required to call any witnesses or to produce any evidence.
The defendant is not required to testify. No presumption of guilty may be raised, and no
inference of any kind may be drawn from the fact that the defendant did not testify.
The testimony of a witness may be discredited by showing that the witness will benefit in
some way by the defendant’s conviction or acquittal, that the witness is prejudiced, or that the
witness has any other reason or motive for not telling the truth.
The testimony of a witness may be discredited by showing that the witness previously
was convicted of a crime. The conviction does not necessarily mean that the witness is failing to
tell the truth. It is a circumstance you may consider, along with all other evidence, in deciding
whether you believe any or all of his [her] testimony.
The testimony of a witness may be discredited by showing that the witness made a prior
statement which contradicts or is inconsistent with his present testimony. The prior statement may
also be considered by you for the truth of the matter contained therein.
An expert is a person who is learned in a particular area and he is permitted to express his
opinion upon matters in issue, but an expert is not called into court for the purpose of deciding
&

the case. You the jurors are responsible for deciding the case. (Ary)xpert is merely a witness and
you have the right to either accept or reject his testimony and opinion in the same manner and for
the same reasons for which you may accept or reject the testimony of other witnesses in the case.

©

In this case the defendant is charged with Second Degree Murder [La. R.S. 14:30.1] by
killing Tyrone Miles.
The possible verdicts you may render in this case as to each count are as follows:

<£>
©

Guilty as charged of Second Degree Murder, or
Guilty of Manslaughter, or

C^)

Guilty of Negligent Homicide, or

^4?^)

Not Guilty.

3

If you are convinced beyond a reason

able doubt that the defendant is guilty as charged of

Second Degree Murder, your v erdict should be: guilty as charged.
nable doubt that the defendant is guilty of the
If you are not convinced beyond a reaso
convinced beyond a reasonable doubt that
offense charged as to a respective count, but you are
the defendant is guilty of a responsive verdict, your

verdict should be guilty of the appropriate

responsive verdict.
If the State has failed to prove beyond a reasonable doubt that the defendant is guilty of
either the offense charged or of the lesser responsive offense as to a respective count, your
verdict should be not guilty.
of Second Degree Murder is defined in pertinent part in our law as the tailing
The crime
£) of a human being when the offender has a specificjnterrttokill or to inflict great bodily harm.
Whoever
impriso
sentence.”
The crime

©

“A.

of Manslaughter is defined in pertinent part in our law as follows:

Manslaughter is...

(1)

(2)

a homicide to manslaughter if the jury finds that the offender s blood had
actually cooled, or that an average person’s blood would have cooled, at
the time the offense was committed, or
icide committed without any intent to cause death or great bodily
A horn
harm;
a.
When the offender is engaged in the perpetration or attempted
perpetration of any felony not enumerated in Article 30 or 30.1, or
any intentional misdemeanor directly affecting the person.
1. Battery is the intentional use of force or violence upon the
person of another.
Simple battery is a battery committed without the consent
2.
of the victim and is an intentional misdemeanor directly
affecting the person.
3. Aggravated battery is a battery committed with ^dangerous
weapon and is a felony not enumerated in Article 30 or 30.1.
Assault is an attempt to commit a battery, or the intentional
4.
placing of another in reasonable apprehension of receiving a
battery.
4

5.

Simple assault is an assault committed without a dangerous
weapon and is an intentional misdemeanor directly affecting
the person.

6-

Aggravated assault is an assault committed with a
dangerous weapon and is an intentional misdemeanor directly
affecting the person.

The defendant bears the burden to prove, by a preponderance of the evidence, that he
acted in sudden passion or heat of blood” in order for a verdict of manslaughter to be
appropriate.
”^le cr*me of Negligent Homicide is defined in pertinent part in our law as follows:
A. Negligent homicide is the killing of a human being by crimin al negligence.
Criminal negligence exists when, although neither specific nor general criminal intent is
present, there is such disregard of the interest of others that the offender’s conduct amounts to a
gross deviation below the standard of care expected to be maintained by a reasonably careful
man under like circumstances.
(^J

^^^intent has been referred to in this case. Our law providers that criminal intent
may be specific or general.
Specific criminal intent is that state of mind which exists when the circumstances
indicate that the defendant actively desired the prescribed criminal consequences to follow his
act or failure to act.
^2?pGeneral criminal intent is present whenever there is specific intent, and also when the
circumstances indicate that the defendant in the ordinary course of human experience must have
adverted to the prescribed criminal consequences as reasonably certain to result from his act or
failure to act.
Whether criminal intent is present must be determined in light of ordinary experience.

€9

A homicide is justifiable if committed in self-defense by one who reasonably

believes that he is in imminent danger of losing his life or receiving great bodily harm and that
the killing is necessary to save himself from that danger.

5

(3

The danger need not have been real as long as the defendant reasonably believed that he
was in actual danger.
Some factors that you should consider in determining whether the defendant had a
reasonable belief that the killing was necessary are:
(1)

the excitement and confusion of the occasion;

(2)

the possibility of preventing the danger to himself by using force less than killing;
and

(3)

the defendant’s knowledge of his assailant’s dangerous character.

A person who is the aggressor or who brings on a difficulty cannot claim the right of selfdefense unless he withdraws from the conflict in good faith and in such a manner that his
adversary knows or should know that he desires to withdraw and discontinue the conflict
Thus, if you findT~~
(1)

'

—— ______________ _____ _

That the defendant was not the aggressor or did not bring on the difficulty, or
that he withdrew from the conflict in good faith and in such a manner that his
adversary knew or should have known that he desired to withdraw and
discontinue the conflict; and

(2)

that the defendant killed in self-defense; and

(3)

that the defendant believed that he was in danger of losing his life or receiving
great bodily harm; and

(4)

that the defendant believed the killing was necessary to save himself from the
danger; and

(5)

that the defendant’s beliefs were reasonable in light of the circumstances;
then you must find the defendant not guilty.

A defendant who raises the defense that he acted in self-defense does not have the burden
of proof on that issue. The state must prove beyond a reasonable doubt that the homicide was
not committed in self-defense.

6

j

"US

When you enter the jury room, you should consult with one another, consider each
other’s views, and discuss the evidence with the objective of reaching a just verdict.
I will hand you a typewritten list of the forms of the possible verdicts you may render in
this case as to both counts.
When you retire to deliberate, you will elect one of your members to serve as foreperson.
When you reach a verdict the foreperson must write the verdict on the back of the list of
responsive verdicts, sign and date the verdicts, and deliver the verdicts to me in open court.
You need not be unanimous in your verdict. Ten of twelve jurors must agree on the
verdict you render in this case.
When you have reached your verdicts, please advise the bailiff, and court will reconvene
to receive your verdicts.
The case is now yours to decide.
January

.,2014

BRADY D. O’CALLAGHAN
DISTRICT JUDGE
ATTORNEYS AND REPRESENTATIVES:
Dale G. Cox, Asst. District Attorney, State of Louisiana
George Winston, Asst. District Attorney, State of Louisiana
Sarah M. Hood, Asst. District Attorney, State of Louisiana
John Bokenfohr, Defense Counsel for Derrick Dewayne Edwards

7

DERRICK DEWAYNE EDWARDS
Petitioner,
versus

DARREL VANNOY, Vterden
Louisiana State Penitentiary
Respondent

APPENDIX

